     UNITED STATES DEPARTMENT OF AGRICULTURE

             OFFICE OF INSPECTOR GENERAL




          STATEMENT OF ROGER C. VIADERO

                  INSPECTOR GENERAL



                          Before the

             HOUSE APPROPRIATIONS SUBCOMMITTEE
                             ON
AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION
                            AND
                      RELATED AGENCIES


                        March 14, 2001
                                                                          For release only by the House
                                                                          Committee on Appropriations




                             STATEMENT
                                   Of
                          ROGER C. VIADERO
                         INSPECTOR GENERAL
                   OFFICE OF INSPECTOR GENERAL
                 U.S. DEPARTMENT OF AGRICULTURE
                               before the
       HOUSE APPROPRIATIONS SUBCOMMITTEE ON AGRICULTURE,
       RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION,
                       AND RELATED AGENCIES

                                         March 14, 2001




                            INTRODUCTION AND OVERVIEW


Good morning, Mr. Chairman and members of the Committee. I am pleased to have this

opportunity to visit with you today to discuss the activities of the Office of Inspector

General (OIG) and to provide you with information on our audits and investigations of

some of the major programs and operations of the U.S. Department of Agriculture

(USDA).



Before I begin, I would like to introduce the members of my staff who are here with me

today: Jim Ebbitt, Assistant Inspector General for Audit; Greg Seybold, Assistant

Inspector General for Investigations; and Del Thornsbury, Director of our Resources

Management Division.
I also want to thank the Committee for its support during my tenure as Inspector General.

We have tried to work closely with you, and I hope we have been able to address some of

your concerns.



I am proud to say that, in fiscal year (FY) 2000, we continued to more than pay our own

way. In the audit arena, we issued 110 audit reports and obtained management’s

agreement on 743 recommendations. Our audits resulted in questioned costs of nearly

$95 million. Of this, management agreed to recover more than $47 million. In addition,

management agreed to put another $268 million to better use. Equally as important,

implementation of our recommendations by USDA managers will result in more efficient

and effective operations of USDA programs.



OIG investigations resulted in $175.9 million in fines, restitutions, other recoveries, and

penalties during the year. Our investigative staff completed 553 investigations, obtained

481 indictments and 459 convictions, and made 2,616 arrests.



While I am very proud of the accomplishments of this organization over the past year, I

must add that our results could be much more dramatic. Although I am very appreciative

for the increase we received this fiscal year, the overall continuous erosion of our budget

in the past 7 years in constant dollars continues to severely limit what we can accomplish.

During this time, we have had to decrease our staff by over 150 positions--approximately

20 percent--to offset this erosion. Such a decrease in OIG’s audit and investigative staffs

results in a decline in our ability to ensure that the taxpayers’ dollars, which you



                                                  2
appropriate for the Department of Agriculture, are protected from external criminal

enterprises, internal corruption, and improper stewardship.



Adequate funding and staffing for our office make good sense and are very cost effective

in view of the money we save the taxpayers. While I recognize there is a fierce

competition for the Government’s limited resources, I believe OIG must be viewed

differently from the program delivery missions, in that we are often the last line of

defense against compromise of the Department’s program delivery and are a significant

contributor to the creation of a Government that is accountable and productive. Every

OIG special agent and auditor who cannot be hired as a result of the constant erosion of

our budget results in “one less cop on the beat” in every agriculture neighborhood across

this country. This makes for tough decisions on my part. Which agriculture


                                               OFFICE OF INSPECTOR GENERAL
                                        Employment History:     Actual On Board vs. Ceiling
                                                        FY 1994 - FY 2001
                         900


                               850
                         850

                                                  811
                               808      831
                         800
   Number of Employees




                                         764
                                                                754                               753    753
                                                                               750       750
                         750
                                                 746        744
                                                                          729
                         700

                                                                                           666


                         650
                                                                                                 655
                                                                                                        648


                         600
                                1994   1995     1996        1997          1998          1999     2000   2001

                                                                 Fiscal Year
                                                   On Board (EOY)                    Ceiling




                                                            3
neighborhood should we leave vulnerable to criminal victimization by shifting our thin

line of law enforcement resources to only the highest agricultural priorities? This is a

real choice I am forced to make daily because I simply do not have sufficient resources to

cover the entire agriculture community. As such, I request that our proposed funding

level be approved without reduction.



We work closely with the Department’s agencies through our audit work and criminal

investigative efforts to ensure that appropriated funds are used efficiently and effectively

and program benefit dollars go to those recipients intended by Congress. Generally, we

audit and investigate the largest dollar fraud cases since our staffing levels will not allow

us to do more. This means there are usually a large number of fraud cases we do not

have the staffing to address and which, therefore, must be referred to the agencies to

pursue through administrative remedies. However, the agencies do not have resources to

address all of these cases, and even more importantly, many of them should not be

handled administratively since they involve fraud. Thus, the underlying result is that a

significant amount of criminal activity is not being addressed. This makes it very

difficult to turn the tide of fraud in any particular program area. Additionally, in our most

recent audit planning seminar, we identified 30 staff-years of work in high priority areas

we had to drop from our audit program because we did not have staff available to

perform the work. Similarly, we continue to carry a backlog of nearly 750 pending,

inactive investigative cases—nearly 30 percent of our total caseload--which we cannot

address in addition to our normal caseload of approximately 2,000 active cases.




                                                  4
Our current staffing level also restricts our ability to pursue criminal investigations

proactively, generally limiting us to one or two program areas of proactive work per

fiscal year. Nevertheless, we continue to work closely with USDA agency officials to

address key issues and expand joint operations with other Federal, State, and local law

enforcement and audit agencies to broaden the impact of our work. Working together,

our staffs identify program weaknesses and program violators.



In my testimony today, I will address the most crucial issues facing the Department and

why it is essential that OIG be funded at the level requested.



The safety and wholesomeness of agricultural products provided to the public is our

primary concern. OIG is committed to ensuring the health and safety of the American

consumer as it relates to agricultural products. Additionally, we will focus our efforts on

employee integrity, financial integrity, and information technology and computer security

issues, including new statutory requirements such as the Government Information Security

Reform Act. That legislation requires annual reviews, beginning in FY 2001, of the

Department’s information security program, most notably an evaluation of the effectiveness

of security control techniques for a sample of the systems. We need the necessary

resources to broaden our scope of work in these areas and pursue an audit and

investigative enforcement strategy resulting in the greatest impact on these critical

programs.




                                                   5
                      AUDIT AND INVESTIGATIONS ACTIVITIES



                                    HEALTH AND SAFETY



Our audits and investigations continue to identify problems in domestically produced

foods including contaminated food, misbranded products, and uninspected meat or other

products. We also are seeing an increase in problems in imported food products or other

commercial shipments legally imported into the United States, as well as shipments

smuggled into the United States containing banned products and, frequently, dangerous

pests. OIG’s resources, especially our investigative resources, are increasingly

overextended. OIG is often required to pull its special agents from current investigations

of large dollar frauds in USDA’s benefits and loan programs to investigate criminal

activity that threatens the health and safety of the public.



We must also address domestic and international criminal terrorist threats to the security

of our Nation’s food supply. This problem has been recognized as a major concern by

the Department of Justice (DOJ) and Congress, as well as OIG. Threats of intentional

biological contamination of food products for extortion or ideological motives victimize

and disrupt the food production and distribution systems of this country. Immediate

response to emergency situations impacting USDA personnel, programs, and operations,

as well as regulated industries, requires the specific, unique law enforcement expertise of

USDA OIG.




                                                  6
Recently, successful prosecutions of criminal enterprises have included a multiagency

sting operation in San Francisco, which netted three importers who attempted to bribe a

Government official to expedite the entry of their food shipments from Hong Kong into

the United States without the required inspections. The other two importers pled guilty,

one to receipt of adulterated food in interstate commerce and the other to importing

adulterated product and bribery. A Federal jury found the third importer guilty of

bribery, money laundering, smuggling, entry of adulterated foodstuffs, and conspiracy.

He was the leader and organizer of this criminal activity and had obstructed justice by

providing false testimony at his trial. Because of the serious risk to public health and

safety caused by the smuggling of salmonella-laden seafood into the country, the judge

also granted the Government’s motion for upward departure from sentencing guidelines.

This case resulted from work initiated by the San Francisco Interagency Import Task

Force, which has been targeting firms involved in illegally importing plants and animals

that may present a threat to America’s food supply. This investigation alone cost OIG

approximately $350,000 in personnel, travel, and equipment costs.



Based on notification by the California Department of Food and Agriculture that a

Los Angeles agricultural products import firm may have smuggled tons of Mexican sweet

limes into the United States, we initiated a joint criminal investigation with the

U.S. Customs Service. In June 2000, a 27-count indictment was filed, charging three

individuals and two firms with conspiracy, smuggling, and aiding and abetting. Two of

the three indicted subjects have been arrested, with one awaiting trial and one convicted

on charges relating to the transport of various agricultural products, including Mexican



                                                  7
sweet limes, into California from Mexico. Laboratory examination showed that a

substantial portion of the illegally imported Mexican sweet limes was infested with

Mexican fruit fly larvae.



We are also concerned with the large number of repeat offenders that USDA and State

regulatory agencies have to deal with on a regular basis. Civil fines and administrative

sanctions have simply become an additional “cost of doing business” for those repeat

offenders who seek to skirt the dedicated efforts of the Department’s regulatory agencies.

These cases involve the smuggling of agricultural products, illegal meat processing

operations, the deliberate introduction or threatened introduction of biological agents to

attack this Nation’s food supply, and assaults on employees in the Department’s

regulatory agencies as they carry out their official duties.



For example, in one recent ongoing investigation, an anonymous letter containing an

unknown powder alleged to be anthrax was sent to the owner of a federally inspected

meat plant. Fortunately, the powdery substance was benign; however, it caused great

concern for those plant employees who were exposed to the substance. It also caused

economic disruption to the operation of the plant, which was forced to close for a half

day until the identity of the substance could be determined through laboratory testing and

the meat plant could be properly decontaminated. This hoax cost the plant thousands of

dollars in lost production, hospital costs, and destroyed product. We cannot put a price

tag on the anxiety caused to the plant employees while they wondered if they had been

truly exposed to anthrax.



                                                  8
In another recently completed investigation, we identified a corporation smuggling

prohibited uninspected meat products into the United States. The foreign country where

these meat products originated is prohibited from exporting them into the United States

due to numerous livestock diseases, such as foot-and-mouth disease, and sanitation

concerns in their manufacturing plants. Such products pose a serious health hazard to the

general public and livestock industry in America. On five previous occasions, the

company had been caught by two separate USDA regulatory agencies smuggling these

illegal meat products into the United States. On each of these occasions, the products

were destroyed, and the company received a small fine. Recently, my office received

information that the corporation was again importing these illegal, dangerous products.

We have initiated a criminal investigation with DOJ to put an end to this flagrant skirting

of the USDA regulatory process and ensure the protection of the public’s health.



While we continue to respond as quickly as we can, I am concerned that our efforts to

respond to these incidents are severely hampered by a lack of personnel; proper

protective equipment, such as biohazard suits and breathing equipment to ensure the

health and safety of our staff, and specialized forensic equipment to gather evidence

samples; and funding for specialized training on how to recognize and properly handle

biohazardous materials.



In addition to our investigative work, we have completed a series of audits to determine if

the Food Safety and Inspection Service (FSIS) has successfully implemented the new

science-based Hazard Analysis and Critical Control Point (HACCP) system for inspecting



                                                 9
meat and poultry in the United States. Our initial review included the implementation of

HACCP, laboratory analyses, foreign imports, and the compliance program that carried over

from the previous system. We found that while FSIS had taken positive steps to secure the

safety of meat and poultry products, more needs to be done in all four areas reviewed.

Overall, we concluded FSIS had reduced its oversight to less than what is prudent and

necessary for the protection of the consumer.



Based on these findings, we made numerous recommendations to FSIS for program

improvement, and it has agreed to implement those recommendations. However, because

FSIS’ record in fulfilling promises of implementation is weak, we need a continued audit

presence to monitor and ensure implementation of the recommendations. In addition, we

are expanding our audit review of FSIS’ program on meat and poultry products imported to

the United States. We are also performing additional work to assess the equivalency

determinations FSIS makes of foreign countries’ inspection systems and to determine if

FSIS’ reinspection of foreign imports is working as intended. Even as we begin this work,

we are worried that we will be unable to complete both this new audit and monitor

implementation of the earlier recommendations with current staffing levels. We are

concerned that if we are not able to do adequate monitoring and FSIS does not implement

these recommendations, the U.S. food supply will be at risk.




                                                10
Antismuggling Program



The escalation of smuggling activity involving food products has forced us to shift our

resources to this arena. Such smuggling brings high dollars in underground “black

market” commerce and is an increasingly serious problem to the Nation and especially to

the economy of many agricultural States. Smuggling can and has resulted in the

introduction of harmful exotic plant and animal pests, diseases, and invasive species

which harm America’s crops, forests, food supply, livestock, wildlife, and domestic

animals, as well as the health of the American consumer. Such illegal activity can cost

billions of dollars in destroyed crops and undermined agricultural markets--both foreign

and domestic--and result in lost jobs, as well as create a serious health threat to the

American consumer.



To combat the ever-increasing smuggling activities, OIG has developed a three-pronged

strategic approach which relies heavily on an expanded relationship with State, local, and

Federal agriculture and law enforcement agencies. However, our antismuggling program

has been limited due to our lack of resources, which I have described previously.

Additional staffing is needed for these proactive initiatives, along with the necessary

specialized law enforcement equipment.



We also audited APHIS’ Plant Protection and Quarantine (PPQ) practices for inspecting air

and ship cargos and passengers arriving at the Miami and Ft. Lauderdale, Florida, ports. We

identified vulnerabilities and weaknesses which increased the risk of prohibited products



                                                 11
and pests entering the United States. OIG observed that PPQ inspectors did not inspect

cargo ships upon arrival; did not inspect the baggage of 75 percent of arriving international

airline passengers and 99 percent of cruise ship passengers arriving from foreign locations;

did not assess fines as a deterrent against airline and cruise ship passengers found to have

prohibited agricultural items in their possession when entering the United States; did not

select samples of perishable cargo for inspection but, instead, allowed brokers to select the

samples; nor did they ensure that caterers met all foreign arriving aircraft immediately upon

arrival to remove, in seal-proof containers, any food or nonfood garbage.



We recommended that APHIS assess penalties when warranted and determine if higher

inspection fee rates were necessary to provide for sufficient resources. We recognize, as

does APHIS, that inspections are resource-intensive, and that risks need to be assessed to

determine where scarce resources should be directed. APHIS believes that airports handling

international passengers pose the greatest risk. However, it has not presented OIG with a

risk assessment that supports that contention, nor has it presented an assessment indicating

additional staffing is needed because risks are inherent at both airports and seaports.



Because of this audit and our concern with the smuggling into the United States of

prohibited products, we have begun a broad-based review, evaluating APHIS’ policies and

procedures for identifying and assessing risk among the various agricultural goods imported

into the United Sates. We also are reviewing the interaction between APHIS and the

U.S. Customs Service to review the measures employed to detect pests that may enter the




                                                12
United States in both agricultural and nonagricultural related products. Our goal is to make

recommendations that will help APHIS do its job better.



                                  EMPLOYEE INTEGRITY



A continuing priority for OIG is the investigation of criminal acts committed by USDA

employees. We have identified approximately 55,000 USDA employees whose positions

place them in direct contact with the public on a regular basis, doing everything from

inspecting meat and grading produce to providing loans and other program benefits. The

only way to maintain the confidence of the taxpayers, consumers, and producers who use

or rely on the Department’s services is to know that USDA has a trusted and dedicated

work force. And, while we want to emphasize that the evidence shows, and we firmly

believe, that the highest percentages of these employees do their job with the utmost

integrity, to maintain that trust, internal controls must be in place and operating. To

quote a great American, Dwight D. Eisenhower, “the unaudited deteriorates.”



One case that demonstrates a situation where those controls broke down is our continuing

investigation of the scheme by which Agricultural Marketing Service (AMS) graders

accepted bribes from produce wholesalers at the Hunts Point Market in New York City in

return for downgrading produce. It also graphically demonstrates how corruption can

have a major impact on the daily commerce of this country. This kind of investigation is

very staff intensive and requires the use of specialized technical equipment, such as

listening devices that are wired into the electrical system for long distance coverage. We



                                                 13
currently have a significant number of corruption investigations similar to this one. This

is an area where we must be ever vigilant, and where we simply must have the right tools

and sufficient staffing to stop corrupt USDA employees from continuing their criminal

activities.



                                   FINANCIAL INTEGRITY



While some of the Department’s agencies have achieved success with their financial

systems and received clean financial opinions, other major systems have not. The Food

and Nutrition Service (FNS), the Risk Management Agency (RMA), and the Rural

Telephone Bank received unqualified opinions in FY 2000, which means their financial

statements fairly presented their financial position. But the Forest Service (FS) and the

Commodity Credit Corporation (CCC) were unable to complete their financial statements in

time for us to audit them by the legislatively mandated timeframe of March 1. Also, Rural

Development has not been able to properly determine the cost of their loan programs. Thus,

it received a qualified opinion.



The individual conditions of the agencies when taken together mean that for the past

7 fiscal years--1994 through 1999 and in our just released audit for 2000--we have issued

a disclaimer of opinion on the Department’s consolidated financial statement. This

disclaimer means that the Department overall does not know whether it correctly reports

all collected monies, the cost of its operations, or other meaningful measures of financial

performance. Most importantly, some USDA managers do not have reliable financial



                                                14
information regarding how much has been spent on the cost of program operations and

are being forced to make decisions “in the dark” without solid financial data. Not only

can flawed decisions result, but the integrity of program dollars is put at risk of misuse or

theft. Given USDA’s annual budget authority of about $82 billion dollars in FY 2001,

the importance of having a strong financial reporting capability cannot be overstated.



The main problems that USDA has to solve to improve its financial accounting which

will result in improved opinions on these financial statements include: FS needs to

improve its accountability and evaluation of its assets; Rural Development, CCC, and the

Farm Service Agency (FSA) need to perfect models and gather the necessary data to

support implementation of the model that will accurately reflect the costs of their loan

programs; and the Department needs to complete implementation of its new accounting

system--the Foundation Financial Information System.



These major problems contribute to conditions that keep the Department from achieving

a clean audit opinion. For example, we have been unable to substantiate the

Department’s fund balance with the Department of Treasury reported at over $38 billion.

This account represents monies that can be spent in the future for authorized transactions.

Last year we reported that Treasury records and the Department’s records were out of

balance by $5 billion. At the close of FY 2000, the difference had been reduced to about

$450 million. In other words, the Department still has reported differences with Treasury

of this amount, $450 million, and does not know the reason why. Think of this in terms




                                                 15
of your personal checking account. Your check register says one thing but the bank says

you spent a higher amount, and you cannot figure out the difference.



FS has been impaired by a lack of accountability over its assets. Historically, it has not

been able to develop a meaningful asset valuation because it did not know what assets

had been acquired, when the assets were obtained, or how much they cost. While FS has

improved in recording assets, asset valuation continues to be a problem. To overcome

this problem, FS needs to undertake an extraordinary level of effort to establish

accountability and develop acceptable accounting records in order for agency

management to fulfill its financial management and stewardship responsibilities.



While the Department is working toward overcoming past encumbrances to an unqualified

audit opinion, aggressive action is still needed to foster meaningful financial management as

soon as possible. All of this activity significantly impacts OIG’s resources. We have had to

devote far more effort to the legislatively mandated audits of financial statements than

envisioned by Congress because of the systemic weaknesses that have generated

unauditable statements. While it may seem paradoxical, the demand on our resources will

actually increase--not abate--as the Department moves closer to auditability because we will

have much more to audit than we have had in the past. For the FY 2000 financial statement

audits, we scheduled more than 70 auditors--over one-third of our audit staff--full time, for

these audits. We estimate that the workload demands will require us to increase our

financial staff to 90 auditors--about 40 percent of our audit staff--as we begin the FY 2001

financial audits. In the absence of additional staff, critical program activity will go



                                                  16
unaudited as we fulfill our statutory financial audit requirements. Additionally, these audits

require the use of specialized data-mining software along with expert training for the

auditors who use it. If these critical resource issues are not addressed, our ability to

complete the statutory financial statement audits will erode, and we will not be able to audit

other high-priority areas.



                    INFORMATION RESOURCES MANAGEMENT



Computer Security



Our fourth area of major concern is securing the availability, accuracy, and privacy of

information in the Department’s information technology systems. This remains a

significant challenge for the Department. USDA agencies continue to expand their use of

the Internet to provide services and information to the public, commonly referred to as

“e-government.” E-government offers extensive possibilities for the Department to

improve its delivery of services, collect information, and manage its operations. USDA

has numerous information assets that include market-sensitive data on the agricultural

economy and commodities, signup and participation data for programs, personal

information on customers and employees, and accounting data. These information and

related systems face unprecedented levels of risk from intentional or accidental

disruption, disclosure, damage, or manipulation.




                                                 17
Based on our audits, we believe significantly more action is needed to strengthen

departmentwide information security. While the Department has been responsive to our

recommendations, initiating prompt fixes to the vulnerabilities we have reported,

additional work must be done. We have only been able to look at a few of the hundreds

of systems within the Department. Information in USDA databases is market sensitive

and, if misused, could cause economic chaos and harm prices farmers receive. USDA

also operates the National Finance Center (NFC) in New Orleans. NFC pays salaries and

other expenses exceeding $23 billion each year. It also houses the database for the Thrift

Savings Program, which has assets of over $100 billion. We must ensure all of these

assets are safeguarded and information is protected.



The demands on OIG’s resources in this area are increasing significantly. As I mentioned

earlier, Congress passed the Government Information Security Reform Act, requiring annual

reviews beginning this year of the Department’s information security program. Each review

must include an evaluation of the effectiveness of security control techniques for a sample of

the Department’s systems. These audits are extremely complex and costly because the

auditors need specialized training and sophisticated software to perform them. At current

funding levels, OIG will be hard-pressed to fulfill this legislative mandate.



When we have been able to do work “up front” on computer systems, it has resulted in a

success for the agencies developing the systems. We did this with FNS and the States as

they were implementing Electronic Benefits Transfer (EBT) systems in the Food Stamp

Program (FSP) and, as a result, EBT is a success for us and FNS as well as the States. It is



                                                 18
now much easier to detect retailers who harm the program by buying benefits at half their

cost or less, rather than selling food. With EBT, you can more readily pinpoint when and

where this happens.



Currently, 41 States and the District of Columbia use EBT systems. Thirty-seven of the

systems have been implemented statewide, and approximately 74 percent of food stamp

benefits, estimated at $12.6 billion for FY 2001, are issued through such systems. During

FY 2000, we completed reviews in Florida, Louisiana, North Dakota, South Dakota, and

Utah and found all systems have been successfully implemented.



All EBT systems to issue food stamp benefits must be in place by October 2002. To

date, one-quarter of the benefits are not under an EBT system, and some States are either

only partially under EBT or are in the process of converting. Some, such as California,

Michigan, Mississippi, New York, and Virginia, have significant caseloads which will

greatly affect their conversion. Thus, we must remain proactive in our approach to

reviewing systems as they are implemented when adjustments and changes are more

easily addressed.




                                              19
                     OTHER MAJOR CHALLENGES FACING USDA



Food, Nutrition, and Consumer Services



The national food stamp certification error rate for FY 1999, the last year completed,

stands at 9.9 percent; while lower than in 1998, it still accounts for dollar-issuance errors

of about $1.6 billion, with overissuances being $1.1 billion of that amount. Yet, the

number of dollars issued and participating households are going down. School districts

are also finding high rates of error in households certifying their eligibility for free or

reduced-price lunches. Recent statistics assembled by FNS for some selected States

showed an error rate of about 20 percent. In Illinois alone, OIG found this accounted for

excess program outlays of about $31 million in 1 school year. Other U.S. departments,

such as Education and Health and Human Services, also use the school lunch data as a

basis for distributing program funds, so the impact goes far beyond USDA. These areas

need our attention, but we simply do not have the resources necessary to address this

issue now.



Operation Talon


For more than 3 years, OIG has coordinated a nationwide law enforcement initiative

dubbed “Operation Talon,” which has resulted in the arrest of over 7,000 fugitive felons.

This initiative, which has been carried out in conjunction with other law enforcement

agencies and State social service agencies across the country, was designed to identify,

locate, and apprehend dangerous and violent fugitive felons who may also be illegally


                                                   20
receiving benefits through FSP. Operation Talon has grown into a nationwide dragnet,

currently encompassing fugitives wanted in 29 States, as well as Federal fugitives sought

by the U.S. Marshals Service. The more serious offenses for which Operation Talon

fugitive arrests have been made include 32 arrests for homicide; 48 for sex offenses,

including rape and child molestation; 15 for kidnapping/abduction; 390 for assault;

213 for robbery; and 1,604 for drug/narcotic offenses. A number of States are removing

arrested fugitives from their food stamp rolls, resulting in an estimated average savings to

FSP of over $12.6 million. We have managed to leverage our success through the use of

targeted asset forfeiture funds to pay for overtime costs and special equipment needs of

the State and local law enforcement agencies participating in Operation Talon. However,

since its inception 3 years ago, this program has cost OIG over $4.3 million in direct

appropriated funds to spearhead Operation Talon in neighborhoods across America.



                                     CROP INSURANCE



Based on our prior audit efforts, we believe the management of the Department’s crop

insurance programs will continue to provide challenges. Congress recognized the need

for Federal Crop Insurance Program reform when it passed the Agricultural Risk

Protection Act of 2000 (ARPA). This Act requires the Secretary to reduce the potential

for fraud, waste, and abuse in the program by mandating the exchange and comparison of

relevant information received by RMA and FSA in the conduct of their respective

production agriculture programs. Our audits have indicated weaknesses in the research

and development of new types of crop insurance policies; conflicts of interest involving



                                                21
the insureds, insurance agents, and the loss adjusters; noncompliance with loss claim

procedures by the loss adjusters; and inadequate quality control reviews by the insurance

companies.



To meet that congressional mandate, RMA and FSA have established working groups to

implement the provisions of ARPA, including data reconciliation, FSA assistance in

monitoring crop insurance programs, and RMA consultation with State FSA committees

in formulating crop insurance policies and plans of insurance. Currently, OIG is assisting

these working groups as they develop the framework to implement the congressional

mandate. As RMA and FSA implement these controls, we will need to monitor and test

them to ensure they are adequate and functioning as intended and provide timely

feedback to RMA and FSA. We believe this proactive approach and working with the

agencies early on will be more effective and result in greater cost savings to the

Government than trying to recover incorrect payments.



                    BUSINESS AND INDUSTRY LOAN PROGRAM


In FY 2000, delinquency rates rose sharply in the Rural Business-Cooperative Service’s

Business and Industry (B&I) guaranteed loan program. FY 2001 funding in this program

increased to over $3 billion, tripling FY 2000 levels. We believe the Department is

facing the possibility of a dramatic increase in financial losses to the Government in this

area. Factors, such as the growing presence of unregulated financial organizations--or

nontraditional banks--with unorthodox financing and servicing arrangements that can




                                                 22
mask delinquencies until a total financial failure occurs, make some of these loans even

riskier to the Department.



Ongoing nationwide audit work in this area is disclosing significant problems. We are

expanding our efforts into a special initiative to assess the extent of this burgeoning

problem and will make appropriate recommendations for needed legal, regulatory, and

administrative changes.



In prior years, we audited defaulted B&I loans whenever the loss to the Government

exceeded $3 million. Frequently, these audits prevented USDA from paying fraudulent

claims. However, staffing shortages now prevent our audit of all but the most egregious

loss claims. Additional resources would allow more audits in this high-risk area and

identify potentially fraudulent and abusive loss claims, resulting in the prevention of

substantial funds from ever leaving the Department in payment of fraudulent claims.



                               RURAL HOUSING PROGRAM



The Department’s Rural Housing Program is another effort which will continue to need

attention by the Department. The American Homeownership and Economic Opportunity

Act of 2000 was signed into law on December 27, 2000. It strengthened the ability of

Rural Development to seek prosecution of individuals, both civilly and criminally, who

abuse and defraud the Multi-Family Housing Program. Many of the reforms enacted will

directly address the problems found in our nationwide initiative with the Rural Housing



                                                 23
Service that identified and documented significant abuse and fraud in the Multi-Family

Housing Program.



We are continuing substantial audit and investigative efforts in this area to include

cooperative efforts with DOJ to encourage acceptance of these cases for prosecution.

The passage of the new legislative authority significantly increases the chances for

successful prosecution.



                                         CONCLUSION



We are proud of our record and accomplishments at OIG. We continually assess where

the risks for waste, fraud, and abuse are in the Department and direct our limited

resources to those we judge to be at the highest risk. The question is, do we have

sufficient resources to address all or even the majority of those area that are vulnerable

and at risk? As I have indicated today, the answer is clearly, no.



This concludes my statement, Mr. Chairman. I appreciate the opportunity to appear

before you today and would be pleased to respond to any questions you may have at this

time.

                                             *****




                                                 24
                                                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                                              OFFICE OF INSPECTOR GENERAL




Department of Justice Participating Agency
FORFEITURE FUNDING




Total Expenditures:
              Categories                                            Description                                  FY 1998     FY 1999      FY 2000       Total
                   Third Party Interests
                                      Payment of valid liens and secured mortgages                                 $5,877          $0      $12,877      $18,754
                        ADP Equipment Automated data processing equipment                                          $4,734     $13,278           $0      $18,012
               Case Related Expenses  Travel and subsistence expenses, translation services, storage              $40,635     $92,078     $252,620     $385,333
            Special Contract Services Contract personnel (Data Analyst, Law Clerk)                                  $646     $131,555     $117,982     $250,183
                  Training and Printing
                                      Training, travel, and printing expenses                                     $37,726    $224,111      $52,916     $314,753
                Contracts to ID AssetsInformation services for tracing forfeiture assets                               $0      $5,393           $0       $5,393
  Joint Law Enforcement Task Forces   Overtime and other operational costs for State and local agencies            $7,367    $239,692     $144,272     $391,331
                Awards for InformationPayment for specific information on criminal activity                            $0     $19,802      $17,920      $37,722
                                      Purchase of evidence for money laundering and other forfeiture
                Purchase of Evidence related violations                                                                $0        $848           $0      $848
            Equipping of Conveyances Equipping agency owned or leased vehicles                                   $185,380       $3,586     $73,866 $262,832
                               Totals                                                                            $282,365     $730,343    $672,452 $1,685,160

Asset forfeiture monies are authorized and allocated to OIG as 1-year funds. Any unused funds must be returned to the U.S. Department of Justice (DOJ)
(where the funds are considered as no-year funds and can be reallocated for future use). Authorization is required from DOJ to reallocate funds to different
categories where the need for additional funding has been identified, rather than in the categories where the funds were originally allocated.
                OFFICE OF INSPECTOR GENERAL
             Employment History: Actual On Board (EOY)
                        FY 1994 – FY 2001



850
       808

800
              764
                      746     744
750                                    729



700
                                                666
                                                          655
                                                                 648
650

600
      1994   1995   1996     1997     1998    1999       2000   2001
                    OFFICE OF INSPECTOR GENERAL
              Salary and Benefits Costs vs. Average Cost Per FTE
                             FY 1994 – FY 2001



$100                                                                             $91
                                                                                +7.1%
                                                                        $85
 $90                                                           $81     +4.9%
                                                             +11.0%
 $80                                                $73
                                $69        $70     +4.3%
                       $65     +6.2%      +1.4%
 $70         $64
                      +1.6%
                                                                              $59
                                                                    $56      +6.1%
                                        $52      $53        $54
 $60                $51     $52                                    +3.6%
       $52                             +0.5%    +2.4%      +0.9%
                   -1.0%   +1.2%
 $50
       1994         1995      1996       1997     1998      1999      2000     2001

       Salary and Benefit Costs (Millions)
       Average Salary and Benefit Costs Per FTE (Thousands)
                                                              U.S. DEPARTMENT OF AGRICULTURE - OFFICE OF INSPECTOR GENERAL
                                                                     USDA Budget Authority With Supplementals vs. OIG Budget Authority
                                                                                           FY 1994 - FY 2001
                              $95,000                                                                                                                                           $95,000

                                                                                                                                                 $90,922

                              $90,000                                                                                                                                           $90,000



                              $85,000                                                                                                                                           $85,000



                              $80,000                                                                                                                                           $80,000


                                                                                                                                                            $75,983
                              $75,000                                                                                                                                           $75,000
                                                                                                                                       $74,435

                              $70,000                                                                                                                                           $70,000




Dollar Amount (In Millions)
                                                                                                                                                                                          Dollar Amount (In Thousands)




                                        $65,952
                                                                                                                                                                      $68,715
                              $65,000                                                                                                                                           $65,000
                                                                                                   $63,028
                                        $65,530                                                                                   $65,128         $65,097
                                                          $63,288           $63,639                          $63,128
                              $60,000                                                                                                                                           $60,000
                                                                                            $61,298
                                                    $58,585                 $58,951                                     $58,519

                              $55,000                                                                                                                                           $55,000
                                             1994              1995            1996             1997                 1998           1999            2000              2001
                                                                                                       Fiscal Year


                                                                USDA Budget Authority With Supplementals                                    OIG Budget Authority
